No. 19-587
IN THE SUPREME COURT OF THE UNITED STATES
JIMMIE EUGENE WHITE, II, PETITIONER
V.

UNITED STATES OF AMERICA
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE UNITED STATES IN OPPOSITION, via first-class mail, postage
prepaid, this 6th day of March 2020.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contain 6058 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct. Executed on
March 6, 2020.

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
March 6, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin's phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

19-0587
WHITE, JIMMIE EUGENE, II
USA

JOHN P. ELWOOD
ARNOLD & PORTER KAYE SCHOLER LLP
601 MASSACHUSETTS AVE., NW
WASHINGTON, DC 20001
202-942-5000
JOHN.EL WOOD @ARNOLDPORTER. COM
JEREMY C. MARWELL
VINSON & ELKINS LLP
2200 PENN. AVE., NW
SUITE 500 WEST
WASHINGTON, DC 20037
202-63 9-65 07
KENNETH P. TABLEMAN
KENNETH P. TABLEMAN, P.C.
161 OTTAWA AVENUE, NW
SUITE 404
GRAND RAPIDS, MI 49503-2701
616-233-0455
TABLEMANK@SBCGLOBAL.NET

